                  ($­
  Departent of Health and Human Servces
                  . OFFICE
      INSPECTOR                  GENERA


TH INCOME AN ELIGffIL VERICATION SYSTE (lVS):
                         TI FOR REFORM?




                            Richard P. Kusserow
                            INSPECfOR GENERA

                  'oaa            JUY 1991
                             CE   OF INSPECTOR           GENRA
The miion of the Offce of Inpector General      (OIG); as mandated by Public Law 95-452
as amended , is to protect the integrty of the Deparment of Health and Human Servce
(HS) program as well as the health and welfare of beneficiaries served by those programs.
Th statutory mision is caed out though a nationwide network of audits , investigations
and inpetions conducted by three    OIG operatig components: the Offce of Audit
Servce, the Offce of Investigations , and the Offce of Evaluation and Inpections. The
OIG also inorm the Secretary of HHS of program and management problems and
recmmends courses to correct them.

                          OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servce (OAS) provides all auditing servce for HHS, either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examie the performance of HHS programs and/or its grantee and contractors in
carrg out their respective responsibilties and are intended to provide independent
assesments of HHS programs and operations in order to reduce waste, abuse, and
mimanagement and to promote ecnomy and effciency throughout the Department.

                          OFFCE OF INTIGATIONS
The OIG's Offce of Investigations (01) conducts crial, civi and admitrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiares and of
unjust enrchment by providers. The investigative effort of 01 lead to crial convictions
admitrative sanctions , or civi money penalties. The 01 also oversee State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

                 OFFICE OF EVALUATION AN INSPECTONS
The OIG's    Offce of Evaluation and Inpections (OEI) conducts short- term   management and
program evaluations (caed inspetions) that    focus on issues of concern to the Deparment
the Congres , and the public. The fidings and recmmendations contained in these
inpection report generate rapid , accurate , and up- to-date information on the effciency,
vulnerabilty, and effectivenes of deparmental programs. This report was prepared in the
Boston Regional offce under the direction of Regional Inspector General
Mark R. Yessian , Ph. , and Deputy Regional Inspector General Marta B. Kvaal. Project
staff include:

Theodore T. WaI                      Alan S. Levine Headqarters
Barr C. McCoy
David Schrag

  Department of Health and Human Servces
                    OFFICE OF
      INSPECTOR GENERAL




TI INCOME AN EUGffILIT VERICATION SYSTE (IEVS):
                       TI FOR REFORM?




               "CEs'


                          Richard P. Kusserow
                          INSPECTOR GENERA
         "6




              ..a            . OEI-Ol-   9010
                EXECUTIVE SUMMAR Y


PUROSES
The purposes of this study are to (1) synthesize the fidings and reco=endations of
several recent reports examining the implementation of Income and Eligibilty
Verication Systems (IEVS) by Ihe States, and (2) offer conclusions for Federal
offcials and others considering fuure directions for IEVS.

BACKGROUN
Since the mid- 1980' , the Federal government has required each State to have an
IEVS. The purpose of an IEVS is to reduce waste, abuse           , and costs in the   Aid
Famiies with Dependent Children,     Food Stamps , and Medicaid programs. An IEVS
is a system, usually automated , for matching financial information received from
public assistance clients with information in certain Federal and State data bases. It
helps States identif those who are ineligible or who receive incorrect benefit
payments because their incomes or resources exceed allowable liits.

In recent years , several Federal agencies and a national organiztion representing
State welfare agencies have exaed aspects of States ' implementation of IEVS. At
the request of the President' s Council on Integrty and Effciency, we have analyzed
the reports of these 10 studies. We supplemented this analysis with discussions with
Federal and State welfare officias concerned with IEVS. Ths report provides a
synthesis of the studies '   findings and recommendations. A detailed summary of the
studies appears as appendix A of this report.

FIINGS
Severl recent stu idti m.r proble wih               the States   ' impletatin of            IEVS.
Th inate that:
              information in the Federal data bases has been inaccurate , duplicative
               untimely, or inaccesible;


              Federal requirements , in important respects, are highly prescriptive, or
              unclear, or inconsilent; and

              the administrative capacity of many States to implement IEVS is
              limited by insuffcient staff and inadequate computer resources.
Th    stu   make    no     recommtins concerg State' raures but th do ades
Fedral data bases        and Fed reqem. In
                                             part th inat tht:
               the usefulness of the Federal data bases should be improved; and

               Federal requirements of the States should be modied. One report
               calls for them to be made more flexible; othr reports urge that they
               be more specifc. Several reports urge they be better coordinated
               among the Federal agencies.


and   in
In th thee State we visited,. proble wih



CONCLUSIONS
                   resoures st appe to   hiFed   da b,.es Fed reem
                                            efort to ope


The problems identified in this report appear to be substmtial enough to warrant
further examination of IEVS. Toward that end , the Offce of Inspector General wil
undertake further study addressing the effectiveness of paIcular matches. In
addition , the Department of Health and Human Servces and the Department of
Agriculture might weII consider a basic reexamination of IEVS. That reexamination
might address ways in which:

               the Federal government could give States more flexibility in carrng
               out IEVS matches and at the same time hold them more accountable
               for results;



               Federal data bases used in IEVS matches mit be made more useful;
               and

              additional Federal data could be made available to States.
                   . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . . . . . . . . . .




                       TABLE OF CONTENTS



EXCU SUMY                                                                                                                                   . . .. i

INODUCTON . . .                                                                                                                . . . . . . . . 1



FIINGS. .                                                                                                      ..............3
CONCLUSIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

APPENIX A .............................................. A-

    Findings and Recommendations of
    Selected Studies Related to the

    Implementation of IEVS

APPENIX        B............................................... B-1
    Endnotes
                                           INTRODUCTION€

PUROS€
The purposes of this study are to (1) synthesize the fidings and reco=endations of€
several rent reports examing the implementation of Income and Eligibilty€
Vericatin Systems (IEVS) by the States , and (2) offer conclusions for Federal
offcials and others considerig future directions for IEVS.

METHODOLOY€
We analyed reports of 10 studies related to the implementation of IEVS by the€
States. These reports have been issued since 1985 by the General Accounting Offce
(GAO); the Offces of Inspector General (OIG) in the Deparment of Agrculture
and the Department of Health and Human Servces (HHS); the Health Care


(APWA). €
Financing Administration (HcFA) and the Office of the Assistant Secretary for
Management and Budget in HHS; and by the American Public Welfare Association


We supplemented this analysis with discussions with State welfare offcials 
durig site€
visits to thre States , with Federal offcials associated with IEVS , and with staf from

the APWA.1


BACKGROUN€

Since the mid- 1980' , the Federal government has required State agencies
administering certain federaIly funded public assistance programs to operate an
Income and Eligibilty Verication System.


An IEVS is a matching system , usuaIly automated , involving Federal and State data
bases. The States use IEVS to verify the accuracy of financial information provided
by clients to the State public assistance agencies that administer the
                                                                                             Aid   to Famies
with Dependent Children (AFDC), the Medicaid , and the Food Stamps programs.
These programs , respectively, are funded in part by the Admistration for Chidren
and Famiies (ACF) and HCFA in HHS and the Food and Nutrition Servce (FNS)
of the Deartment of Agriculture.

The Congress mandated IEVS in the Deficit Reduction Act (DEFR) of 1984
(P. L.   96-369). 2 This mandate was                        largely a response to a presidential commission
which had concluded that the Federal and State governments had misspent more
than $4 bilIon on inappropriate payments in these programs in 1982. In                             establishing€
IEVS , the Congress intended that it augment existing State verification systems
through more comprehensive , systematic use of developing computer technology and
computeried data bases.

The purpose of IEVS is to reduce waste, abuse, and costs in these three assistance
programs that are jointly fuded by the Federal and State governents. The State
agencies must match financial information received from both applicats and
recipients with fiancial inormation about them contaied in the data bases of the
Social Security Administration (SSA), the Internal Revenue Servce (IRS), and
certain State agencies. The IEVS provides States with fiancial inormation that
may not have been reported by applicats and recipients of these programs. Thus
States can better identif those who are not eligible for public assistance or who
receive incorrect benefit payments because their incomes or resources exceed
aIIowable limits.

The IEVS process tyicaIIy begins when a State agency receives financial information
on an applicant--say, for AFDC-- from a local welfare offce. The State agency
forwards the information , often on computer tape, to the appropriate Federal or
State agency for matching against particular financial information about the applicant
contained in its computerized data base. In return , a computer tape containg the
relevant information is sent back to the State agency for foIIowup. That agency
usuaIIy forwards the information to the local welfare offce for caseworkers to veri
and to correct eligibility and benefi determinations as appropriate.

In this report , which was requested by the President s Council on Integrty and
Effciency, we provide a detailed summary of 10 recent studies related to IEVS.
This summary appears as appendix A. In the text , we provide a synthesis of the
studies ' major findings and recommendations. We do not make recommendations
because our own inquiry was brief and our focus was primariy an analysis of the
existing studies. Instead , we offer conclusions for Federal offcials and others
considering future directions for IEVS.
                                   FINDINGS€
Severl   rte st         id    major prble     wi th State' imletin            of   IE.
Al States have implemented IEVS , but several major problems have hidered their
abilty to operate the system fuIly and effectively. The reports identif three tyes of
problems: deficiencies in the Federal data bases , ineffciencies resulting from
strigent or unclear Federal requirements , and the limited resources of State public€
assistance agencies.



       Information in the Federal data bases has been inaccurate,    duplicative
       untiely, or inaccessible.
Eight of th 10 reports  identified specific problems with the reliability of the Federal
data bases Sometimes the information is inaccurate or inconsistent. Benefit
amounts OF client identifiers such as Social Security numbers are incorrect , for
example. Or information from one Federal data base may disagree with information
from another. Approximately half of all States had experienced problems with
unreliable data in the SSA and IRS data bases in 1988, accordmg to the APWA
report, the most recent survey of all the States about IEVS. A year later , in 1989
60 percent of the States considered the SSA data unreliable , accordinR to the HHS
GIG survey of welfare officials from all States about SSA' s data exchange systems.

Sometimes the information is too old to be useful in verig the current financial
status of clents , or it duplicates more current information available from other
sources. This is particularly the case with certain data from SSA' s Beneficiary
Earnings EXchange Record (BEER) file, the data base on reported wages. These
data in many respects duplicate more current information available from the State€
agencies collecting wage information. Information on unearned income from the IRS€
is also often too outdated to be useful , particularly for ongoing matches on recipients
of these public assistance programs.

Often , the Federal data are received by the States too late to be most useful-- during
the application process before any overpayments are made. This is the time when
the potentil for savings is greatest. But the turnaround time for exchanging
information is lengthy. Delays result because the schedules for runng the matches
can be infrquent. Also , agencies exchange information primariy through a physical
exchange (If computer tapes rather than through direct electronic transfer.

These problems limit the usefulness of Federal data to the States and reduce the
efficiency of the verification process. They can cost the States considerable time and
effort to deal with them. Inaccuracies , in particular, can be very difficult, if not
impossible ,   to correct. In some instances ,   States simply bypass the Federal data
bases altogether. They seek information in other ways or do not perform all the
required matches even though , by so doing, they may be out of compliance with
Federal requirements.


Finally, some Federal data are not now available for IEVS matchig, although many
States would lie to use them for verig fiancial inormation on clients. These
data include other inormation from SSA, such as overpayments and direct deposit
data , data on benefits from the Veterans Administration , and inormation on U.
savings bonds and on income for Federal Civi Servce employees.

       Federal requirements ,    in important respects , are highly prescriptive , or
       unclear,   or inconsistent.


The Federal requirements governing the matchig process are highly prescriptive and
detailed. Agencies must   match financial information from aI1 public assistance
applicants and recipients with particular information from specified Federal and State
data bases. They must conduct these matches according to schedules mandated by
Federal rules. 3 They must complete      foI1owup on the information received from the
matches within 45 days in most instances.

These requirements are so extensive and complex that many States were not
complying with them all. The HCFA and FNS reviews of selected States , in Fiscal
Years 1987 , 1988 , and 1989 , revealed that the requirements forperforrng aI1
matches , for timely foI1owup, or for safeguarding the data from the IRS were most
consistently troublesome.

The States have had diffculty satisfyg other IEVS requirements because they have
been unclear , particularly so in the case of requirements for data coI1ection and
reporting and for targeting match information for foI1oWUp.


The origial IEVS regulations ,  published in 1986, required States to coI1ect and
report data on actions taken and the savings realized from the IEVS matches. These
requirements were very general. States were instructed not to develop their
information systems until detailed instrctions were issued. But , durig the period
covered by these reports , the Federal agencies (FNS , ACF, and HCFA) had not
issued fial and   specific instructions. Their absence presented problems for the
States and Federal agencies. For exaple , FNS , ACF, and HCFA have each
required the States to submit cost-benefit data to justify their targeting of foI1owup
on IEVS matches. Yet the States lacked the detailed guidance for implementing the
data coI1ection and reporting systems essential for producing performance data.
Further, most States have not produced performance data that are comprehensive
reliable, and reported uniformly. This lack of solid performance data liits the
ability of Federal and State agencies to assess the costs and benefits of IEVS
matches.
   Finally, the lack of coordinated direction from the Federal agencies has created
   problems for State agencies. For example, the interim rules on targeting and cost-
   benefit justications for IEVS were issued separately by the three Federal agencies--
   FNS (1988), AcF (1988), and HCFA (1989). They contained somewhat dierent
   requirements even though they were all concerned with IEVS and were directed to a
   single agency in most States.

   Also, the Federal agencies have not developed guidelines that are uniorm for
   collecting and reporting data. Thus , as pointed out in the 199 GAO report the
   potential exists for State public assistance agencies havig to develop separate
   systems for collecting and reporting cost and benefit data on the IEVS matches. The
   FNS , ACF, and HCF A each require these data to satisfy the requirements of IEVS.
   But, as a result of the Computer Matching and Privacy Protection Act of 1988, the
   IRS and SSA have been requesting from these State agencies other performance
   data on IEVS matches because these agencies are using Federal data bases in their
   computer matching programs.

              The admiistrative capacity of many States to implement IEVS is lited    by
              insufcient staff and inadequate computer resources.

  Although many State public assistance agencies were verifyng client inormation
  prior to IEVS , the additional requirements of IEVS created a more rigorous
  extensive verification process. This process has burdened many States that have
  insuffcient staff and computer capability.

  The IEVS increased the workload of nearly all State public assistace agencies
  particularly for clerical staff and eligibility workers, according to the APW A survey.
  Nearly 80 percent of the States reported that they needed more staff to meet the
  demands of IEVS but that staffing levels had not increased.

  Inadequate computer capability has also hampered implementation of IEVS by the
  States. In establishing IEVS , the Federal government assumed that States were
  operating with extensive , sophisticated computer systems that would require little
  modification to accommodate an IEVS. This was not the case.     In late 1986 , at the
  time when States were first required to have an IEVS in place, only six reported to
  GAO that their existing automated systems met the requirements for IEVS or would
  do so with only minimal modifications.



for
  Many States have continued to operate with inadequate or obsolete automated
  systems that limit their ability to implement IEVS fully and effectively. For instance
  agencies have had to rely on the mail
                                             exchanging computer tapes , mark-sense
  cards , and sometimes even paper forms. Only two States had begun to use the
  electronic transfer of data through a Wire Third Party Query system (WTY).
 Moreover, followig up on match inormation is a largely manual process in most
 instances. The States may not have case information stored in automated data
 bases , or, even if they do, workers in local welfare offces frequently lack access to
 computer terminals.

Finally, the inormation systems for keeping track of the disposition of IEVS matches
may not be automated. Even if they are , they may not be sophisticated enough to
provide the information necessary for determnig productive targeting strategies or
the costs and benefits of the overal IEVS process.

The studies make no rec=endations concerng States' resurce but they do
addres Federa data bas and Federa requiments.

       The usefulness of the Federal data bases should be improved.

The HHS OIG focused its attention on the SSA data bases in two reports.
examined the BENDEX (Beneficiary and Earnings Data Exchange) system in 1985
just prior to the implementation of IEVS in 1986.. At that time , OIG reco=ended
that SSA improve the accuracy, completeness , and timeliness of the system , expand
the information it contained , and improve the agency s co=unications with State
welfare agencies. Four years later, aftr a broader review of SSA's automated data
exchange process , the OIG again directed similar recommendations to SSA.

The APWA, summariing survey respones from 50 States, echoed the OIG in callng
for improved reliability of Federal data and improved communications with State
agencies. It outlined further steps for improving the usefulness of the Federal data.
These included more timely response to State matching requests , revised security
requirements for the IRS data , and greater access to other Federal data unavailable
to the States for IEVS matches.

       Federal requirements of the States should be modified. One report caIls for
       them to be made more flexible; other reports urge that they be more specifc.
       Several reports urge they be better coordinated among the Federal agencies.

The APW A, on behalf of the State public assistance agencies , urged a " sweeping
reform " of IEVS. It argued that increasing States ' flexibilty in conducting IEVS
matches would enhance the cost-effectieness of the process. Further, the APWA
caIled for a " systematic   review " of IEVS to assess the effectiveness of the present
system and to determine whether it serves the purposes intended by Congress. It
offered numerous other recommendatians intended to relax those Federal
requirements it considers too prescriptNe or unrealistic such as the time frames for
followup on match information.

The thrust of the recommendations in the FNS and HCF A reviews is very diferent
from that of the APWA. Rather than urging greater flexibilty, these reports have
numerous roommendations that , in general , call for more specifc regulation for the
system. ThCJ urged more detailed guidance to States; more comprehensive, reliable
performance data to document the savings and costs of IEVS; and more intensive
monitoring        1I sanctionig of States not complyig with requirements.
Several of t!& reports, both Federal and non-Federal, agreed on the need for
improved cOldination among the Federal agencies involved with IEVS. The HCFA,
in its most nxnt program review issued in 1990, as well as GAO and APW A, have€
urged that Faeral agencies develop            more consistent regulations. The APW A argued€
further that dr         lack of   Federal coordination is serious enough to warant the

designation        at   a single Federal coordiator for IEVS or a coordiator      in each

agency.



          in
In the thee Skte we
and
                              vi                      Fedl data bases Fed
                                                 hi efort to opete IE.
                                        proble wih
                        resoures st appe to
                                                                                  reqem
Although neany all the welfare offcials from the three States we visited thought
IEVS had bee useful, many were experiencing problems with IEVS similar to those
identified in the reports.

The problenB with the Federal data bases mentioned most freql,ently were the age
of the informion , particularly the IRS data , and the lack of access to other data
that would be helpful. Problems with inaccurate or inconsistent data were also
mentioned but somewhat less frequently.

Several offcWs thought the Federal requirements for IEVS were too extensive and
prescriptive. For instance ,        some commented on the limited usefulness of matching
all applicants for assistance or of matching with particular data bases. Overall , the
officials were about equaIly divided about the reasonableness of the 45- day
requirement iJr foIlowup on match information.

Senior offcial in two States spoke of the limits of computer capability in their
departments. They observed that Federal planners had assumed that the States were
more automatd than they were and that the burden of IEVS could be "automated
away. "       Thesl: offcials noted ,   however , that some States stil have little automation.
Others with Bore sophisticated systems have found their abilty to adapt their
systems for IEVS sometimes limited by budget problems, technical complexities, and
other demandl on the agencies ' resources.

The Federal :aencies associated with IEVS have taken some steps to deal with these
problems. 6       Bit these observations from State offcials
                                                                 , which are based on their
recent experices , suggest that their efforts have not remedied the fundamental
problems with the system.
                             CONCLUSIONS


The problems identifed in this report appear to be substantial enough to warrant
further examination of IEVS. Toward that end , the Offce of Inspector General wil
undertake further study addressing the effectiveness of particular matches. In
addition, the Department of Health and Human Servces and the Department of
Agrculture might weII consider a basic reexamination of IEVS. That reexamiation
might address ways in which:

              the Federal governent could give States more flexibilty in carrg
              out IEVS matches and at the same time hold them more accountable
              for results;


              Federal data bases used in IEVS matches might be made more useful;
              and

              additional Federal data could be made available to States.

The information supporting the fidings in this report is insuffcient to support
definitive recommendation caIIing for a reform of IEVS. It is compellg enough
however, to raise serious questions about IEVS. These questions concern the
effectiveness of particular IEVS matches. They also concern the need for more
fundamental reform and the directions it might take.

Thus, the Offce of Inspector General wi undertake further inquiry into particular
aspects of current IEVS requirements. Also, it would appear to be timely for the
Department of Health and Human Servces and the Department of Agrculture
individuaIIy or coIIectively (perhaps through the President's Council on Integrty and
Effciency), to undertake a basic review of IEVS.


If the signals identified in this report are correct, such a broader review could
indicate that some major changes in course are necessary. Such changes might
involve the scope and usefulness of the Federal data bases made available to the
States. Even more signficantly, they might caII for a twofold approach that (1)
                                                                                gives
the States more discretion in how they go about implementing IEVS and (2) holds
them more accountable for results through the use of various performance
indicators. ? The States and Federal agencies could work together to determe  the
kid of indicators that might most appropriately be used to help assess performance.
                                         1985€



United States Deparment of Health and Human Servces , Offce of Inspector
General The Beneficiary and Earninl.s Data Excham!e System: Its Use and
Potential, 01- 8600063, Washington, D. , December 1985


Backgun
Ths inspection examied States ' experiences with BENDEX and identifed problems
and issues associated with the operation of the system. The inspection was based
priariy on   discussions with selected State and county offcials involved with
BENDEX and with staf from the district offces of the Social     Security
Administration in 16 States.


Major Fin&s:

      A number of problems (SSA and State) limit the usefuln ss of the BENDEX
      system: timeliness , completeness , and/or accuracy of the data and insuffcient
      communication between State agencies and SSA;

      State eligibility workers rely upon SSA district offices more than on BENDEX
      when verifyng information on SSA benefits;

      States find BENDEX useful primarily as a postcertification verification tool
      for recipients. It is of minimal usfulness durig the application process
      because the data are seldom received soon enough;



      Nearly all States have little interes in BEER, the BENDEX tape on reported
      wages , because the information it contains is too old; and

      Many States are tryg to encourae greater use of BENDEX by local welfare
      offices through (1) preparing and disseminating discrepancy reports , (2)
      reformatting SSA BENDEX data, and (3) sending the data to local offces€
      according to regular schedules.




Major Recommtins:

The recommendations are directed to SSA:

      Improve the usefulness of BENDEX during the application process;
Ensure that BENDEX is working properly in providing States with accurate
timely, and complete information;

Exand the inormation contained in BENDEX based on a users ' requiement
analysis undertaken by a Federal- State task force;

Improve the techncal assistance provided to the States in using BENDEX;
and

Ensure that BENDEX is incorporated and operating effectively in the States
automated welfare management systems.
                                           1987€



United States General Accounting Offce Welfare ElilribiItv--Deficit Reduction Act€
Income Verification Issues. Fact Sheet for the Rankig Miority Member€
Subcommittee on Oversight of Governent Management, Commttee on€
Governental Afairs, United States Senate, GAOIH- 87-79FS, May 1987€


Backgund:€
Ths Fact Sheet summaries data from a national survey of al States conducted by€
GAO durig the summer of 1986 to determine progress and problems in the States€
early efforts to implement IEVS.€


Major   Fin€
The Fact Sheet identifies major concerns of the States with IEVS. These include:€

        Additional funding is needed to develop and operate the DEFR income€
        verification systems;€

        The efficiency of States ' automated systems for processing data from IRS and€
        SSA is questionable;€

        The time frames required by Federal regulations for followig up on€
        information received from the Federal data bases are difcult to   comply with;€

        The States ' startup and operating costs to process and use tax data might€
        exceed the benefits in terms of doIlars saved;



        The usefulness of Federal tax data might be limited by its age and other€
        considerations; and€

        Most States wiIl need to change systems in order to meet the safeguarding€
        requirements for Federal tax data.€


Major Recommtins:€

The Fact Sheet gives no recommendations.€




                                          A -€
                                            1987€




Jack Martin & Co. Evaluation of Income and Elilrbility Verification Systems. Final
Report for the Offce of Assistant Secretary for Management and Budget, U.S.
Deparment of Health and Human Servces , Contract No. 100860035
September 15, 1987


Backgund:
Ths evaluation assessed IEVS implementation and operation in five States in late
1986 and early 1987. The States--New Jersey, Oklahoma, Tennessee, Vermont, and
Wisconsin--were selected because they were relatively advanced in implementing the
systems and procedures required by IEVS.

The objectives of the evaluation were to (1) document the status of IEVS , including
factors that facilitated or inhibited implementation; (2) assess the cost-effectiveness of
the various matches using available State data; and (3) provide recommendations for
conducting subsequent evaluations and for improving program performance.


Major   Fin
        The States have not fuUy implemented IEVS in terms of (1) executing
        required matches with aU the required data exchange sources and (2)
        reporting the results to local public assistance offces for disposition;



        For those matches that have been implemented , the States have little
        information on program performance , i. , outcomes and costs. Therefore, no
        assessment of the cost-effectiveness of the required matches is possible in
        these States;

        The limited available data and anecdotal information suggest that IEVS is
        important for reducing erroneous payments , deterrng clients from
        misreporting income, and boosting the confidence of eligibilty workers in their
        decisions;

        Anecdotal information from these States suggests that the substantial effort
        required by local public assistance offices to resolve match results creates the
        widespread perception among State and local office staff that IEVS is
        burdensome and not cost-effective despite its important benefits; and

        The effort and costs involved with IEVS are influenced by the number of


                                           A-
    matches conducted ,  the quality of th data received from the required
    matches , the volume of match infomation referred to local offces for
    disposition, and the procedures folled by the State and local offces in
    processing the inormation received


Major Recommtins:

    The Federal and State governments should work together to develop measures

    of program performance and mechaisms for coIlecting and reporting
    inormation on match outcomes;


    The Federal government should exane the time standards imposed on the
    States for disposition of match inforation;

    A brief survey of all States should be conducted in order to determe the
    nature and extent of performance data available nationwide and to gather
    estimates of the time involved in cerain matching and processing activities;
    and

    Federal efforts to evaluate IEVS aDd to further its technical development
    should be supported through a task order mechanism.
                                                      1988€



United States Deparent of Health and Human Servces , Health Care Financing
Admiistration, FY 1987 Income and Eligibility Verification System
Effectiveness Review Report.             April 1988
                                                                                CIE

Backgun
Ths report summarid HCF A' s review of the implementation of IEVS in the
Medicaid program dnrig Fiscal Year 1987. The report was based on inormation
(1) for all States , whih was summaried in compliance assessments and monthly
reports prepared by me regional HCFA offices , and (2) for 20 States , which were
selected for a special data coIlection initiative.


Major Finfr:

                 Performance data from the States on the costs and savings of IEVS are
                 extremely limed , and " a significant number" of States did not provide HCF A
                 with all the peormance data it requested. However, HCF A reports
                 estimated savigs in the Medicaid program of more than $20 mion for the
                 six-month reviw period in 7 of the 20 States reviewed. Estimates of startup
                 costs in 16 of 1Ie 20 States totaled less than $3 million;

                 IEVS is fuIly Cferational for the Medicaid program in only 18 of 53 States
                 and terrtories reviewed by HCF A; "virtuaIly all'' States have implemented
                 IEVS to at least a minimal degree;

                 Several factor5 limit more efficient operation of IEVS , including the foIlowig:
                 the failure of some States to match information from all categories of clients
                 with all the rarired data sources; some Federal data being too old to be
                 useful; technica problems with SSA and IRS , including the safeguarding
                 requirements iJr the IRS data; and unreasonable time frames for following up
                 on match infalation; and



                 In the absencc of regulations implementing OBRA 1986 , many States are not
                 targeting follOip of IEVS match information to those areas likely to be most
                 productive.




                                                   A -€
Major Reommndtins:

The recommendations are directed to HCFA:

      Assess further the available data to determne the potential for savings from
      IEVS;

      Publish as soon as possible regulations or guidelines on targeting match data
      for foIIowup;


     Resolve those operational and P9licy factors impeding the effcient operation
     of IEVS and clarify policy in wrting; and

     Examine the feasibilty of requiring data reporting in order to measure the
     costs and benefits of IEVS.




                                       A-
                                          1989€



United States Department of Health and Human Servces , Health Care Financing
Admistration FY 1988 Income and Eligibiltv Verification Svstem
Performance Review Report. February 1989
                                                                      (ll
Backgun
Durig Fiscal Year 1988, HCF A reviewed the implementation of IEVS in the
Medicaid programs of 18 States. The primary objectives of the review were to assess
compliance with IEVS requirements and the cost-effectiveness of the required
matches.


Major Finr;:

      The States identifed major concerns about IEVS , including the short time
      frames required for processing match information ,   the 1iited usefulness of
      some Federal data , the costs of IEVS relative to its benefits , the costs of
      changes required to meet safeguarding requirements for IRS data , and the
      lack of Federal instructions for recordkeeping and reporting; and

      Although States have made significant progress in implementing IEVS, several
      major compliance problems exist, such as States not conducting matches
      against all required data bases , not completing foIlowup on match information
      within the required time frames , and not coIlecting performance data for
      assessing the costs and benefits of IEVS matches.


Major Recommtins:

The recommendations are directed to HCF A:

      Issue guidelines and instructions to the States that clarify the requirements for
      recordkeeping and data reporting;

      Support an independent study of the costs and benefits of IEVS data matches
      that would include developing model targeting methodologies; and

      Evaluate the usefulness of the required data matches in order to recommend
      changes in legislation and/or regulations.



                                        A -€
                                         1989€



United States Department of Health and Human Servces, Offce of Inspector€
General ImDrovim! the Social Security Administration s Automated€
Process. OAI- 05-89- 00820, Washigton, D. , December 1989



Backgund:
Ths study assessed experiences of State and local welfare offces with the data
exchange systems of the Social Security Administration. State welfare offcials in all
50 States and the District of Columbia were contacted as were local welfare offcials
in 11 States.





Major Fin&r:

       Many welfare agencies consider SSA data questionable;

       Welfare offcials would like access to certain additional information through
       SSA data fies; and

       SSA's communications with State officials on da a exchange issues need to
       improve.


Major Reommtins:

The recommendations are directed to SSA:

      Take steps to provide welfare agencies with information that is correct;

      Continue to expand the tyes of data provided to welfare agencies;



      Establish a network with welfare agencies for ongoing communications; and

      Involve welfare agencies in resolvig problems and in long-range plang on
      data exchange issues.




                                       A -€
                                             1989




American Public Welfare Association      After Implementation: State                  ence wi.!€
the Income and EIi!!biItv Verification System (                        Final Report
Washigton, D. , April 1989


Backgund:
The National Council of State Human Servce Admistrators (NCSHSA) of the
American Public Welfare Association surveyed 50 States in 1988. The purpose of
the survey was to assess the implementation of IEVS and to identify problems that
States were encountering in operating the system.€



Major Fings:

      States think the concept of IEVS is useful , but they encounter major problems
      that limit the fuII implementation of its requirements. These problems
      include:

             Insuffcient tie   for   processing match information;

             liited staf   available to handle the increased workload;

             Difficulties in meeting security requirements for IRS data; and

             Unreliability of several Federal data bases.


Major Recommtins:

      IEVS matches should be optional , so that States can match against only those
      data sources that are reliable and cost-effective;

      If all IEVS matches are not made optional , Federal statute and regulations
      should be changed as foIIows:

            The requirement for States to match against SSA' s BEER data should
            be made optional;

            Regulations should be revised to permit targeting of match data for
            applicants as weIl as for recipients;


                                          A-
       Requirements for States to have sytems for tracking the processing of
       matches should allow States more flexibility;

       The requirement for States to    inte matches durig the application
       period should be optional;

       The requirement that States follow up on matches within 45 days
       should be dropped; and

       The requirement for States to develop standard computer matchig
       formats should be made optional.

Federal agencies involved with IEVS should take the followig   nonregulatory
actions:

       Improve the reliabilty of the Federal data, provide more timely
       response to State match requests , revise security requirements for the
       IRS data , provide States with acces to other Federal data and with
       more advanced notice of softare changes in Federal data files, and
       promote on- line computerized data exchange systems such as the Wire
       Thrd Part Query system being developed by SSA;

       Improve interagency coordination though such actions as development
       of uniform regulations and appointment of Federal coordinators for
       IEVS;

       Revise the guidelines for the Federal Quality Control review process to
       clarify use of case data; and

       Undertake a thorough review of IEVS to determine whether or not
       current agency requirements are cosistent with the goals envisioned

       for the system by Congress.





                                 A -

                                                     1990€



United States Department of Health and Human Servces, Health Care Financing
Administration,Fiscal Year (FI l     ncome                   and..ity
                                                        Veri..on System
(IEVS)                 ormance           ReDort. March 1990


Backgun
Durig Fiscal Year 1989, HCFA reviewed the operation of IEVS in the Medicaid
program of 17 States.


Major Fings:

                  States continue to make signifcant progress in implementing IEVS but are not
                  strictly adherig to the Federal regulations or not documenting compliance.
                  SpecifcaIly, States are not matching information on applicants against all
                  required data sources , are not developing targeting plans for all IEVS match
                  data , are not meeting required time frames for foIlowig up on matches, and
                  are not establishing recordkeeping and data management systems suffcient for
                  reviewing the effectiveness of IEVS;

                  The States ' major concerns with implementation are:

                         Required time frames for processing match information;

                         Usefulness and duplication of Federal data;€

                         Costs of IEVS relative to the benefits;€

                         Costs of complying with IRS requirements for safeguarding data;€

                        Lack of Federal instructions for recordkeeping and reporting; and€

                        Lack of coordination among Federal agencies.€


Major Recommtins:

The recommendations are directed to HCFA:

              Encourage coordination among Federal agencies in addressing IEVS problems


                                                   A-
through continued participation in the interency   work group;

Delay further State evaluations until FY
                                      199 so that States have time to
comply with new requirements for recordkeing and reporting and to review
the effectiveness of the matches; and

Emphasize the importance of targeting and dissemiate inormation on best
practices based on States ' experiences.




                                           A-
                                            1990€



United States General Accounting Offce Computer Matching--Need for Guidelines
on Data CoIlection and AnaIvsis, Report to the Director, Offce of Management and
Budget , GAOIHD- 90- , Washington, D. C., Apri 1990


Backgund:
Ths review focused on the States ' data coIlection and reportg systems for
evaluating the cost-effectiveness of IEVS. The objectives were to determe if these
systems allow Federal and State offcials to assess whether IEVS is savig money,
whether they provide State offcials with sound information for targeting foIlowup
activity on match information, and whether the IEVS data coIlection requirements
conform with those of the Computer Matching and Privacy Protection Act of 1988
(P. L.   tOO- 503).



Major Finr;:

          As of February 1990 ,none of the Federal agencies (FNS , ACF, and HcFA)
         had issued final guidelines to the States on data collecting and reporting for
         the IEVS program. As a result , data have not been available to assess the
         savings resulting from IEVS, to develop informed targeting strategies for
         foIlowup on match information , and to provide the cost-benefit analyses
         required;

         Regulations governing cost-effectiveness analyses were issued separately by the
         FNS, ACF, and HCFA and contained varyg requirements; and

         Requirements for data coIlection and reporting under IEVS need to be
         consistent with those required by the Computer Matching Act.


Major Recommtins:

         The Offce of Management and Budget should work with FNS, ACF, and
         HCFA to develop uniorm guidelines for data collection and reporting that
         wiIl satisfy IEVS requiements and those of the Computer Matching and
         Privacy Protection Act of 1988.

                                          1990



United States Department of Agrculture, Offce of Inector General Food Stamp
Pro!!am--ImDlementation of Income and Eligibilty Vercation System Nationwide.
Food and Nutrition Servce , Audit Report 27013- 45-Te, OIG Southwest Region
Temple, Texas, March 1990


Backgund:
Ths report summaried a review of the implementation of IEVS in the Food Stamp
program during Fiscal Years 1987 and 1988. The scope of this review included
program operations in 33 States and a U. S. Terrtory as weII as the admistration of
the program by 5 regional offces of the Food and Nutrtion Servce.


Major Finfr:

      Several States are not in fuII compliance with IES requirements. Some are
      not conducting the required matches, and those that are fail to follow up on
      match information within the required time frames;

      State agencies are using various methods and approaches for targeting
      foIIowup in the absence of final Federal regulations; and

      A few States are obtaining useful financial information from Federal sources
      other than those required.



Major Recommndtins:

The reco=endations are directed to the Administrator, FNS:

      Require FNS regional offces to strengthen effort to ensure State compliance
      by foIIowig up and enforcing sanctions;

      Determine what ,if any, additional measures are needed to ensure that States
      comply with the required time frame for foIIowu on match information;

      Provide States with wrtten guidelines on targeting that defines uniorm liits
      or the elements to be included in the States ' plans for targeting; and

      Require regional offces to review States ' targeting plans.



                                        A -

                         APPENDIX B
                                    ENNOTE

     In addition to analyzing the 10 reports summaried in appendix A, we
     reviewed other documents pertinent to IEVS. These included statutes
     regulations , guidelines , and agency correspondence. We discussed IEVS with
-   staff from the APWA and with State offcials durig site visits to three States
     (Massachusetts , New Jersey, and Pennsylvania) and through telephone
    conversations with offcials from several other States.   Finally, we talked with
    offcials from the major Federal agencies involved with IEVS. They included
    the Office of Management and Budget; the Department of Labor; the Internal
    Revenue Servce and the Social Security Administration, which maintain the
    data bases involved in IEVS matching; and the Food and Nutrition Servce
    of the Department of Agrculture , the Administration for Children and
    Families and the Health Care Financing Administration in HHS , the three
    Federal agencies responsible for administering, respectively, the Food Stamps
    AFDC, and Medicaid programs. .

    DEFR also included as part of IEVS the Unemployment Compensation
    program of the Department of Labor. This program is not a needs-based
    public assistance program like the other three programs. Therefore it
    operates as a source of information for IEVS rather than a user of
    information.

    The Federal rules require that financial information from applicants and
    recipients be matched with:

          Unemployment insurance benefit (UIB) information from the State
          agency administering the State s unemployment compensation law.
          Applicants are to be matched during the application period and at least
          monthly during the foIIowing three months. Recipients reporting a loss
          of employment must be matched at the point of that loss and at least
          monthly during the foIIowing three months. Applicants and recipients
          receivig unemployment benefits must be matched monthly until such
          benefits are exhausted.


          State wage and benefit data from the State Wage Information
          CoIIection Agency (SWICA). Applicants are to be matched durig the
          application period and recipients to be matched quarterly.
       Unearned income information from the IR. States must request
       information during the application proces and at least yearly for
       recipients.

       Wage , benefit, and other data from the A fies: BENDEX, the
       Beneficiary and Earnings Data Exchange System; BEER; and SDX, the
       State Data Exchange on Supplemental Serity Income (SSI) benefits.
       States must request inormation for appIints and for recipients                for
       whom such information has not been prevusly requested.

       Social Security numbers of both applicants and recipients must be
       veried through   SSA fies, including           NUENT,
                                                          or Enumeration, or
       Third Part Query (TQY systems).
The time standard for foIlowup on match informtion was revised from 30
days to 45 days in the regulations amending IEVS after the Omnibus Budget
Reconciliation Act (OBRA) of 1986.               Nearly thre- fourths   of the States were
having difficulty complyig with the 45- day standmd for foIlowup in 1988
according to the APW A. The foIlowup process can be very time consuming.
It involves comparing the information received frm the matchig process
against individual case files , seeking additional iDormation to resolve
discrepancies , determining whether eligibilty or benefit payments are affected
recording the determinations in the case fies , and notifyg the clients of any
intended adverse actions.

Targeting refers to screening strategies for foIlowig up on only the match
information most likely to identify and prevent ineligIoilty and incorrect
payments. The OBRA 1986 legislation amended IEVS requirements to allow
States to target rather than to foIlow up on all match information.

The Federal agencies associated with IEVS have:

      Issued final regulations implementing the targeting provision of OBRA
      1986. They were issued by HCFA in early 1990 and by ACF in early
      1991. However , they contain requirements that difer somewhat with
      each other, that vary significantly from the FNS interim rules issued in
      1988 , and that continue to differ with those for cost and benefit data of
      the Computer Matching Act.

      Established an interagency work group composed of representatives
      from FNS , ACF, and HCFA and two State. Since late 1989, this
      group has been a forum for discussing issues and a mechanism for
      encouraging coordination among the participating Federal agencies.
      However, the group lacks legal authority to make decisions binding the
      agencies and thus has limited power to effct significant change.
Afording States more flexibilty in operating IEVS would be in accord with
the President s Executive Order No. 12612 , entitled " Federalism, " dated
October 26 , 1987. This Executive Order detailed the President' s priciples for
maxing States ' discretion in administering national policies.
